                                                                  U.S. Department of Justice

                                                                  United States Attorney’s Office
                                                                  District of Delaware



                                                               P.O. Box 2046
                                                               Wilmington, Delaware 19899-2046


FOR IMMEDIATE RELEASE                                          Colm F. Connolly
Tuesday, May 4, 2004                                           United States Attorney
                                                               (302) 573-6277

                                             PRESS RELEASE

      Colm F. Connolly, United States Attorney for the District of Delaware, announced today that Greg

Austin, age 40, of 5 Milford Street, New Castle, Delaware, entered a guilty plea to a felony charge of Making

a False Statement to the U.S. Department of Transportation before Honorable Joseph J. Farnan, Jr., United

States District Judge, in Wilmington. The maximum penalty for the charge is 5 years in jail and $250,000 in

fines. The Defendant is released on bail, and the Court scheduled sentencing for August 5, 2004.

      According to First Assistant U.S. Attorney Richard G. Andrews, the Defendant lied three times to the

Department of Transportation in connection with the business of Austin & Pruitt Fire & Safety Equipment,

Inc., 2 Brookside Road, Wilmington, Delaware. Austin & Pruitt was one of approximately 2000 high

pressure compressed gas cylinder retest facilities authorized by the U.S. Department of Transportation to

conduct periodic visual and hydrostatic retests of high pressure cylinders, such as fire extinguishers and fire

fighter air-packs. After an unannounced inspection on September 27, 2000, Austin & Pruitt was asked to

recall and retest 81 cylinders. On September 26, 2001, the Defendant faxed to the Department of

Transportation records purporting to show that about 64 of the 81 cylinders had been recalled and retested

during the period of April through June 2001. On January 29, 2002, the Defendant faxed the same records,

in a different format, to the Department of Transportation after there was some difficulty in reading the

records faxed on September 26, 2001. On March 28, 2002, DOT investigators went to Austin & Pruitt’s

business, where the Defendant verified for the investigators that the records he had sent in by fax on

September 26 and January 29 were complete and accurate. The investigators did not believe him, and

tracked down about 30 of the cylinders, at various fire departments. None of the cylinders they found

showed any evidence of having been retested as represented by the Defendant. By his guilty plea today, the

Defendant admitted that none of the 64 cylinders had actually been retested.
      U.S. Attorney Connolly said, “One of the priorities of my office is pursuing cases like this. The

Defendant’s company fulfilled a very important function for the Department of Transportation. Firefighters

risk their lives counting on certifications that their equipment is properly functioning, and safe. The

Defendant’s lies put them at risk.” U.S. Attorney Connolly further noted that the investigation had not

uncovered any evidence that any of the cylinders that the Defendant had falsely claimed to have retested had

actually caused any injury to anyone.

      "This is a situation where profits were made by a company willing to risk the lives of unsuspecting

consumers," said Bill McDaniel, Special Agent in Charge of the Mid-Atlantic Region of the Department of

Transportation's Office of Inspector General. "This prosecution should deter people in the industry from

endangering the lives of those who use compressed gas cylinders."

      The case was investigated by two offices of the U.S. Department of Transportation: the Office of

Assistant Inspector General for Investigations and the Research and Special Programs Administration Office

of Hazardous Materials Enforcement . For further information, please call First Assistant U.S. Attorney

Richard G. Andrews.
